           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     INDIRECT COSTS CLAIMED BY
     THE NEW MEXICO DISABILITY
      DETERMINATION SERVICES

     September 2009   A-06-09-19122




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:   September 30, 2009                                                        Refer To:

To:     Ramona Schuenemeyer
        Regional Commissioner
         Dallas

From:   Inspector General

Subject: Indirect Costs Claimed by the New Mexico Disability Determination Services
        (A-06-09-19122)


        OBJECTIVE
        Our objective was to determine whether the indirect costs claimed by the New Mexico
        Disability Determination Services (NM-DDS) for Federal Fiscal Years (FY) 2007 and
        2008 were allowable and properly allocated.

        BACKGROUND
        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act (Act), provides benefits to wage earners and their families in the event the wage
        earner becomes disabled. The Supplemental Security Income (SSI) program,
        established under Title XVI of the Act, provides benefits to financially needy individuals
        who are aged, blind, and/or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies for the
        development of claims under the DI and SSI programs. Disability determinations under
        both DI and SSI are performed by disability determination services (DDS) in each State
        or other responsible jurisdiction, in accordance with Federal regulations. 1 In carrying
        out its obligation, each DDS is responsible for determining claimants’ disabilities and
        ensuring adequate evidence is available to support its determinations. SSA reimburses
        the DDS for 100 percent of allowable expenditures up to its approved funding




        1
            20 C.F.R. part 404, subpart Q and part 416, subpart J.
Page 2 – Ramona Schuenemeyer


authorization. 2 The expenditures include both direct and indirect costs. 3 At the end of
each quarter of the FY, each DDS submits a Form SSA-4513, State Agency Report of
Obligations for SSA Disability Programs, to account for program disbursements and
unliquidated obligations.

The New Mexico Division of Vocational Rehabilitation (NM-DVR) serves as NM-DDS’
parent agency. NM-DVR provides NM-DDS with various administrative services, such
as accounting and procurement. Costs associated with these services are called
indirect costs. Federally assisted programs bear their fair share of indirect costs except
where restricted or prohibited by law. 4 Federal cost standards state that expenditures
may be allocated to a particular cost objective if the goods or services are charged in
accordance with the relative benefits received. 5 Each year, NM-DVR prepares and
submits an indirect cost rate proposal to the U.S. Department of Education, the
cognizant Federal agency, for approval. The indirect cost rate proposal is prepared
based on the actual costs incurred 2 FYs prior. For example, the FY 2007 proposal was
prepared based on actual costs from FY 2005. At the request of the cognizant agency,
NM-DVR uses the “simplified or single rate method” in formulating the indirect cost rate.
Federal cost standards allow use of this method whenever a governmental grantee has
only one major function encompassing a number of individual projects or activities that
benefit from its indirect costs to approximately the same degree. 6

NM-DVR allocates indirect costs aggregated in indirect pools to three of its programs:
Rehabilitation Services, Special Programs (Program Development and Support), 7 and
DDS. The indirect costs consist of services provided by the Assistant Secretary for
Vocational Rehabilitation, the Administrative Services division, and the Information
Services division. The indirect cost rate is then derived by dividing the indirect cost pool
total by the total direct base (direct costs of the Rehabilitation Services, Program
Development and Support, and DDS). See Appendix B for our audit scope and
methodology and Appendix C for information on NM-DVR’s organizational structure.



2
    20 C.F.R. §§ 404.1626 and 416.1026.
3
 Direct costs can be identified specifically with a particular cost objective (Office of Management and
Budget [OMB] Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment
A, § E.1). Indirect costs arise from activities that are common to multiple programs but are not readily
assignable to these programs without effort disproportionate to the results achieved (OMB Circular A-87,
Attachment A, § F.1).
4
    OMB Circular A-87, § A.1.
5
    OMB Circular A-87, Attachment A, § C.3.a.
6
 U.S. Department of Education Indirect Cost Determination Guidance for State and Local Government
Agencies, Section I D., 1997.
7
 For FY 2007, this program was referred to as Special Programs; for FY 2008, it was referred to as
Program Development and Support.
Page 3 – Ramona Schuenemeyer


                                                               FY 2005        FY 2006
    Actual Direct Cost Base
    Rehabilitation Services                                   $19,974,558    $19,888,654
    Program Development and Support                             3,353,688      3,510,280
    Disability Determination Services                           9,624,760      9,387,056
      Total Direct Base                                       $32,953,006    $32,785,990
    Indirect Cost Pools
    Executive Services                                            $619,145      $650,259
    Executive Support Services                                     168,037        21,337
    Administrative Services Director                               168,406       196,781
    Financial Management                                           789,906       916,315
    Personnel Services                                             216,795       270,326
    General Expenditures and Procurement                           616,613       595,942
    Human Resources                                                251,653       241,562
    Information Services                                         1,306,283       976,879
    Grants and Contracts                                           199,887           453
    Direct Programs Terminal Leave                                  25,476        31,014
    Statewide Cost Allocation                                      366,454       382,348
       Total Indirect Pools                                     $4,728,655    $4,283,216
    Indirect Rate = Total Indirect Pools/Total Direct Base          14.3%         13.1%

SSA reimbursed NM-DVR for FY 2007 indirect costs by multiplying actual direct costs
by 14.3 percent and FY 2008 indirect costs by multiplying actual direct costs by
13.1 percent. As of December 31, 2008, 8 SSA indirect cost reimbursements for
FYs 2007 and 2008 totaled $1.25 million and $1.09 million, respectively.

RESULTS OF REVIEW

Indirect costs claimed for reimbursement under SSA’s disability programs were
generally allowable for FYs 2007 and 2008 and paid in accordance with the cost rates
approved by the cognizant agency. In most instances, NM-DVR’s use of the single rate
method to allocate indirect costs was appropriate because it appeared NM-DDS
benefited from the related services to the same degree as Rehabilitation Services and
Special Programs.

However, based on discussions with NM-DVR and NM-DDS personnel and review of
available information, use of the single rate method resulted in excessive Information
Services, General Expenditures and Procurement, and Human Resources cost
allocations to NM-DDS relative to the benefits actually received.




8
    Based on Form SSA-4513 as of December 31, 2008.
Page 4 – Ramona Schuenemeyer



                                                Total FY 07 & 08     Percentage of SSA’s
                                                 Indirect Costs       Total Indirect Cost
              Indirect Cost Pool            Attributable to the Cost   Reimbursements
                                                      Pool
                     Information Services             $593,922                25.4
    General Expenditures and Procurement              314,661                13.4
                       Human Resources                127,999                 5.5
                                 Total             $1,036,582

NM-DVR implemented the single rate method at the direction of the cognizant agency.
However, basic application of this allocation method was not appropriate in these three
instances because NM-DDS did not benefit from these cost pools to the same degree
as the other NM-DVR divisions. For FYs 2007 and 2008, SSA reimbursed NM-DVR just
over $1 million for indirect costs related to these three cost pools. NM-DVR personnel
stated that a lack of sufficient staffing prevented them from considering an alternative
method of allocating these costs. Adjusting the allocation methodology to reflect that
NM-DDS did not benefit from these services to the same degree as the other NM-DVR
programs would have resulted in a reduction to the approximately $1 million in indirect
cost reimbursements paid by SSA. As long as NM-DVR continues to use the single rate
method to allocate Information Services, General Expenditures and Procurement, and
Human Resources costs and does not adjust the cost pool amounts downward to reflect
the actual level of support provided, excessive indirect costs will continue to be
allocated to NM-DDS.

INFORMATION SERVICES COSTS

The Information Services cost pool supports NM-DVR by developing and maintaining
information technology systems; providing email service to its programs; storing
information; backing up financial, payroll, and training databases; and providing support
for interfaces between NM-DVR and the Department of Finance and Administration
financial system. NM-DVR allocated Information Services costs to three of its programs
based on a percentage of their total direct costs, resulting in NM-DDS indirect cost
allocations totaling $593,922 for FYs 2007 and 2008. Federal cost standards state this
method of allocation is appropriate only if activities benefit from the indirect
expenditures to approximately the same degree. However, NM-DDS did not benefit
from Information Services expenditures to the same degree as the other two NM-DVR
programs. Illustrations of how support provided to the NM-DDS differed from the other
NM-DVR programs follow.

•    SSA purchases the computer equipment and software NM-DDS uses. This
     equipment interfaces with SSA’s systems. Because of the sensitivity of information
     accessible through SSA’s systems, the software installed on NM-DDS computers
     contains an electronic firewall that restricts access to or from NM-DVR computer
     systems. As a result, NM-DDS has limited access to NM-DVR financial systems and
     training modules.
Page 5 – Ramona Schuenemeyer


•   NM-DDS employs two full-time information technology support staff whose salaries
    are included in direct costs already reimbursed by SSA. Their responsibilities
    include keeping NM-DDS computer systems running and updated, maintaining the
    network and workstations, and maintaining the mainframe and printers.
•   SSA provides NM-DDS computer systems with both email access and Internet
    service. The Information Services indirect cost pool includes charges for these
    same services, which are neither available to nor accessible by NM-DDS because of
    the SSA firewall.

Based on the level of support Information Services actually provided, use of the single
rate method resulted in excessive indirect cost allocations to the NM-DDS.

GENERAL EXPENDITURES AND PROCUREMENT COSTS

The General Expenditures and Procurement cost pool captures costs incurred by
NM-DVR to provide guidance and consultation concerning building leases, develop
specifications for new buildings or new office locations, coordinate and manage vehicle
leases with the State’s General Services Department, and coordinate leases of
telecommunications and photocopying equipment. Additionally, NM-DVR provides
guidance and consultation on procurement of goods and services. NM-DVR allocated
General Expenditures and Procurement costs to its three programs based on a
percentage of their total direct costs, resulting in NM-DDS indirect cost allocations
totaling $314,661 for FYs 2007 and 2008. However, NM-DDS did not benefit from
General Expenditures and Procurement costs to the same degree as the other two
NM-DVR programs.

For example, NM-DDS had not leased a vehicle from the State in 3 years. Further,
NM-DDS employees, whose salaries and benefits are fully funded by SSA, initiate and
administer the procurement of goods and services for a majority of the items they
require. Once goods have been procured, NM-DDS provides information to the parent
agency for administrative review and processing through the State system. Based on
the level of support General Expenditures and Procurement actually provided, use of
the single rate method resulted in excessive allocations to NM-DDS.

HUMAN RESOURCE COSTS

The Human Resource cost pool consists of NM-DVR expenditures for training new
employees, conducting the “Rehab Academy” (for developing NM-DVR counselors and
technicians) and overseeing the education assistance program and budget. The
education assistance program pays for State employees to complete bachelor’s and, in
some instances, master’s degrees. Once employees get their degrees, they become
eligible for counselor positions. NM-DVR allocated Human Resource costs to its three
programs based on a percentage of their total direct costs, resulting in NM-DDS indirect
cost allocations totaling $127,999 for FYs 2007 and 2008. However, NM-DDS did not
benefit from Human Resource expenditures to the same degree as the other two
NM-DVR programs.
Page 6 – Ramona Schuenemeyer


Discussions with NM-DDS staff indicated that most training provided to NM-DDS
personnel is either obtained on-line, via the SSA-provided Internet, or purchased
directly by NM-DDS. SSA fully reimburses these costs. According to NM-DDS staff,
most of the training available to NM-DVR employees and staff through the NM-DVR
Intranet is not relevant to DDS operations, and most training modules are not available
for NM-DDS access because of SSA firewall restrictions. The Staff Coordinator stated
that the training provided to NM-DDS employees consists of a new employee
orientation, safety training, violence prevention training, and employment discrimination
training. There are no other services provided to NM-DDS, and there is minimal
communication with the Staff Coordinator. Finally, SSA receives no benefit from the
State’s education assistance program. These expenditures provide college degrees
exclusively for Rehabilitative Services counselors and should not be allocated to
NM-DDS. Based on the level of support actually provided, use of the single rate
method to allocate Human Resources costs resulted in excessive allocations to
NM-DDS.

CONCLUSION AND RECOMMENDATION
Indirect costs claimed for reimbursement under SSA’s disability programs were
generally allowable and paid in accordance with the cost rates approved by the
cognizant agency. However, NM-DVR allocated costs to NM-DDS from three indirect
cost pools in amounts that were not equitable considering the relative benefit received.
NM-DVR used the single rate method to allocate these costs and did not make any
adjustments to reflect that many of the services provided by Information Services,
General Expenditures and Procurement, and Human Resources were either already
provided by SSA or were not used by NM-DDS. NM-DDS will continue to receive
excess indirect cost allocations as long as NM-DVR continues to allocate these indirect
cost pools using an unadjusted single rate method.

We recommend that SSA ensure NM-DDS bears no more than its fair share of indirect
costs by working with NM-DVR and the cognizant agency to develop and implement a
methodology that allows for downward adjustments to Information Services, General
Expenditures and Procurement, and Human Resources indirect cost pool amounts to
reflect the actual degree of support provided to NM-DDS.

SSA COMMENTS

SSA agreed with our recommendation and will work with NM-DDS and NM-DVR to
develop more reasonable cost sharing methods. See Appendix D for the full text of the
Agency’s comments.

NM-DVR COMMENTS

NM-DVR agreed that NM-DDS should bear no more than its fair share of indirect costs
and stands ready to work with both SSA and the cognizant agency. NM-DVR provided
Page 7 – Ramona Schuenemeyer


several observations indicating disagreement with information presented in the report.
See Appendix E for the full text of NM-DVR’s comments.

OIG RESPONSE

We appreciate the comments from SSA and NM-DVR. We are encouraged that both
parties indicate willingness to work together to ensure NM-DDS bears no more than its
fair share of indirect costs. NM-DVR stated its belief that information in the report was
inaccurate or unsubstantiated. NM-DVR stated it was provided no interview protocol
and no opportunity to clarify statements made. During the audit, we interviewed several
NM-DVR and NM-DDS officials including the NM-DVR Director, Chief Information
Officer, Human Resources Manager, Staff Development Coordinator, Administrative
Operations Manager, and the NM-DDS Administrator. Information obtained during
interviews with management and staff was to help us understand the cost allocation
documentation provided. The interviews were not a significant factor in formulating our
conclusion. Other factors included available financial data and indirect cost pool
documentation obtained during the audit.

The NM-DVR stated that costs for Rehabilitation Services Unit staff to obtain degrees
were removed from the indirect cost pool. We learned about the degree program while
discussing the Human Resources indirect cost pool with the NM-DVR Staff
Development Coordinator. Unlike the other NM-DVR components, SSA pays the costs
of most training provided to NM-DDS employees and receives no benefit from either the
Rehab Academy or the education assistance program, both managed by Human
Resources (now referred to as the Staff Development Unit).

NM-DVR stated the report did not completely portray the Information Services support it
provides to NM-DDS. NM-DVR also stated the Information Services provides/maintains
several email groups for NM-DDS as well as an interface with the State Financial
System. NM-DVR further stated it is providing the NM-DDS a separate network
connection in its Albuquerque facility for use by visiting NM-DVR employees and
maintains an employee Website where NM-DDS employees can access on-line training.
We appreciate the technological support Information Services provides the NM-DDS.
However, we believe the costs associated with providing these items is a relatively small
portion of the more than $2.2 million charged to the Information Services cost pool.
Further, the costs associated with the current installation of a network connection in the
NM-DDS have no bearing on the FY 2005 and FY 2006 actual costs used in
determining the FY 2007 and 2008 indirect cost rates.




                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Organization Chart
APPENDIX D – SSA Comments
APPENDIX E – New Mexico Division of Vocational Rehabilitation Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act      Social Security Act
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
DI       Disability Insurance
FY       Fiscal Year
NM-DDS   New Mexico Disability Determination Services
NM-DVR   New Mexico Division of Vocational Rehabilitation
OMB      Office of Management and Budget
SSA      Social Security Administration
SSI      Supplemental Security Income
                                                                     Appendix B

Scope and Methodology
We reviewed the indirect costs reported by the New Mexico Division of Vocational
Rehabilitation (NM-DVR) and its component, the New Mexico Disability Determination
Services (NM-DDS) on its State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) for Federal Fiscal Years (FY) 2007 and 2008. We
reviewed NM-DVR and NM-DDS’ compliance with applicable laws and regulations over
the allowability of indirect costs.

To accomplish our objectives, we:

• Reviewed Office of Management and Budget Circular A-87, Cost Principles for State,
  Local, and Indian Tribal Governments, the Code of Federal Regulations, United
  States Code, the Social Security Administration’s (SSA) Program Operations Manual
  System, and NM-DDS Cost Allocation Plan.

• Interviewed employees from SSA, NM-DVR, and NM-DDS.

• Examined the indirect costs incurred and claimed by NM-DVR.

• Reviewed the supporting documentation used to formulate the allocation
  methodology used to distribute costs to the NM-DVR.

• Reviewed workpapers and source documentation used in preparing the indirect cost
  proposal for FYs 2007 and 2008.

• Compared the description of services provided by NM-DVR to the services received
  by NM-DDS.

• Reviewed Forms SSA-4513 for FYs 2007 and 2008

We tested the data obtained for our audit and determined they were sufficiently reliable
to meet our objective. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We performed our audit from January
through June 2009 at the NM-DVR in Santa Fe, New Mexico; NM-DDS in Albuquerque,
New Mexico; and SSA regional office in Dallas, Texas.
                                                                                      Appendix C

Organization Chart

                      New Mexico Division of Vocational Rehabilitation
                                             Organization Chart

                                              Assistant Secretary
                                                  Division of
                                                  Vocational
                                                Rehabilitation




    Deputy Director        Deputy Director     Deputy Director      Deputy Director   Deputy Director
     Rehabilitation           Program          Administrative         Disability       Information
       Services           Development and        Services           Determination        Services
                              Support                                 Services            & CIO




There are five programs under the Assistant Secretary – Division of Vocational
Rehabilitation (NM-DVR). In calculating the indirect cost rate, NM-DVR divides the
indirect costs of the Assistant Secretary – Division of Vocational Rehabilitation, Deputy
Director – Administrative Services, and Deputy Director – Information Services & CIO
by the total direct costs of the Deputy Director – Rehabilitation Services, Deputy
Director – Special Programs (Program Development and Support), 1 and Deputy
Director – Disability Determination Services. This becomes the indirect cost rate that is
applied to the New Mexico Disability Determination Services.

The NM-DVR uses the “simplified, or single rate method” in formulating the indirect cost
rate. This method is allowable whenever a governmental grantee has only one major
function encompassing a number of individual projects or activities that benefit from its
indirect costs to approximately the same degree. 2




1
 For FY 2007, this program was referred to as Special Programs; for FY 2008, it was referred to as
Program Development and Support.
2
 U.S. Department of Education Indirect Cost Determination Guidance for State and Local Government
Agencies, Section I D., 1997.
                                                                                         Appendix D

SSA Comments

Sent:            Wednesday, September 09, 2009 3:31 PM
To:              ^Audit Correspondence
Cc:              ^DCO OPSOS AUDIT CONTROLS; ||DA ARC MOS; Johnson, Pam RO Dallas; Carter, Val
Subject:         Dallas Reply: Signed Formal Draft Report (A-06-09-19122)

Pat,

We appreciate the opportunity to comment on the Signed Formal Draft Report (A-06-09-
19122), Indirect Costs Claimed by the New Mexico Disability Determination Services.
We would like to thank the OIG Audit staff in the Dallas Region for the excellent manner
in which they organized and performed this audit. We appreciate their efforts to keep all
parties informed of their progress during the audit.

Our response to the recommendation contained in the narrative report follows:

           OIG Recommendation: We recommend that SSA ensure the New Mexico
           Disability Determination Services (NM-DDS) bears no more than its fair share of
           indirect costs by working with the New Mexico Division of Vocational
           Rehabilitation (NM-DVR) and the cognizant agency to develop and implement a
           methodology that allows for downward adjustments to Information Services,
           General Expenditures and Procurement, and Human Resources indirect cost
           pool amounts to reflect the actual degree of support provided to NM-DDS.

           Response: We agree that these cost pools require further analysis and
           justification. We will work with the New Mexico DDS and DVR to develop more
           reasonable cost sharing methods.

If members of your staff have any questions, please have them call Irving Wilkerson or
Roberta Irwin at 214-767-4281 in Management and Operations Support, Center for
Disability.

Ramona
                                    Appendix E

New Mexico Division of Vocational
Rehabilitation Comments
E-1
E-2
E-3
E-4
E-5
E-6
E-7
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Warren Wasson, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-09-19122.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
